FIRST PROGRESS PLATINUM ELITE MASTERCARD® SECURED CREDIT CARD
SUMMARY OF TERMS as of 2/1/2019
Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases

20.74%
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

25.74%
This APR will vary with the market based on the Prime Rate.

Paying Interest

Minimum Interest Charge

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any Interest on purchases if you pay your entire balance by the
due date each month. We will begin charging Interest on Cash Advances on
the transaction date.
If you are charged Interest, the charge will be no less than $1.50.

For Credit Card Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection Bureau
at http://www.consumerfinance.gov/learnmore

Fees
Annual Fee
Transaction Fees
• Cash Advance
•

$29.00
Either $10.00 or 3% of the amount of each Cash Advance, whichever is greater

Foreign Transaction

Penalty Fees
• Late Payment
•

3% of the transaction amount

Up to $39.00

Returned Payment

Up to $28.00

How We Will Calculate Your Balance: We use a method called "daily balance”. See the Cardholder
Agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided
in the Cardholder Agreement.
Margins and Daily Periodic Rates with Corresponding APRs (as of 2/1/2019)
Purchase Rate

Cash Advance and Convenience Check
Rate

Margin

15.24%

20.24%

Daily Periodic Rate

0.0568219% (corresponding APR of 20.74%) 0.0705205% (corresponding APR of 25.74%)

These rates may increase monthly, effective as of the first day of your Billing Cycle. See the Cardholder
Agreement for details.
This Summary of Terms is incorporated into and made part of the accompanying Cardholder Agreement.
Retain both for your records.
FPSTE-010516-020119

